Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    Medicare Beneficiary Interest
         in HMOs in 1997




                   JUNE GIBBS BROWN
                    Inspector General

                     SEPTEMBER 1998
                      OEI-04-97-00032
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

REGION IV                                            HEADQUARTERS

Betty Apt, Project Leader
                           Wynethea Walker, Program Specialist
Jason Stanfield, Contractor
                         LindaMoscoe, Technical Support
Joe Townsel, Program Analyst
                        Barbara Tedesco, Statistician
Paula Bowker, Program Analyst

Janet Miller, Program Analyst


     To obtain copies of this report, please call the Atlanta Regional Office at 404-562-7743.
         Reports are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                   EXECUTIVE SUMMARY

PURPOSE

To determine Medicare beneficiary awareness of and interest in joining health maintenance
organizations in 1997.

BACKGROUND

In all geographic areas, Medicare beneficiaries can obtain medical care through a fee-for-service
arrangement. Many beneficiaries also have an option of obtaining medical care through managed
care plans known as health maintenance organizations (HMOs). As of April 1998, approximately
5.6 million beneficiaries were members in one of 336 Medicare-contracted risk HMOs. Risk
HMOs receive a fixed monthly Medicare payment per beneficiary. Such HMOs must provide a
full range of Medicare services, and are at risk for any health care cost that exceeds the fixed
payment.

During our 1997 survey of Medicare beneficiary satisfaction, we asked beneficiaries about their
awareness of Medicare-contracted HMOs, and their interest in joining one. Several Health Care
Financing Administration (HCFA) staff expressed an interest in this subject, and suggested
questions for our survey.

We included in our sample only beneficiaries who were enrolled in Medicare’s fee-for-service
program. Where possible, we compared beneficiary responses to those of similar surveys we
conducted in 1994 and 1995.

FINDINGS

General Awareness of HMOs by Beneficiaries Increased Each Year

 !	    In 1997, 79 percent of beneficiaries said they had heard of HMOs. This is a statistically
       significant increase from 1995 and 1994 when 70 percent and 62 percent, respectively,
       said they knew about HMOs.

 !	    In 1997, 40 percent of the beneficiaries said they would like to learn more about
       Medicare-contracted HMOs. This is a statistically significant decrease from 1995 and
       1994 when 54 percent and 64 percent, respectively, said they wanted more information.
       This decrease may be because more beneficiaries are aware of HMOs, and do not think
       they need more information.

 !	    About 75 percent of the beneficiaries were not aware they could appeal HMO decisions
       about their health care.




                                           )))))))))))
                                                iii
Beneficiary Awareness of Medicare HMOs in Their Area Remained the Same

 !	    In both 1997 and 1995, 44 percent of beneficiaries said they knew whether or not they
       lived in locations where they could join an HMO. This lack of increase in awareness of
       local Medicare HMOs is puzzling since the number of HMOs available to beneficiaries has
       increased. Also, as shown above, the number of beneficiaries who had heard of HMOs
       has increased.

Beneficiary Interest in Joining an HMO Decreased

 !	    In 1997, only 23 percent of beneficiaries expressed an interest in joining an HMO,
       compared to 35 percent in 1995. This is a statistically significant decrease.

 !	    Of the beneficiaries who cited a reason for not joining an HMO, about 46 percent said
       inability to select their own physicians was the main reason.

 !	    Only 7 percent of beneficiaries expressed concern about quality of care in an HMO. This
       is similar to beneficiary responses to our 1995 and 1994 surveys.

CONCLUSION

The Balanced Budget Act of 1997 expanded the types of managed care plans that will be available
to beneficiaries. Accordingly, HCFA is currently negotiating contracts with managed care
providers, and developing educational materials for beneficiaries. Our past studies and this study
have shown, however, that over half of beneficiaries do not know whether or not a managed care
plan is available that they can join. In preparing educational materials, HCFA could provide
beneficiaries with information on managed care plans available in their local areas. Furthermore,
in view of our survey results, it would also be useful for educational materials to emphasize
beneficiaries’ rights to appeal managed care decisions about their medical care.

We plan to continue our work on managed care issues. Accordingly, we will continue to monitor
beneficiary knowledge and understanding of their choices. To this end, we hope to continue
working with HCFA to develop information that will help them better meet beneficiary managed
care needs.




                                           )))))))))))
                                                iv
                              TABLE OF CONTENTS



                                                                                                                                PAGE
EXECUTIVE SUMMARY

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


          General Awareness of HMOs Increased . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


          Awareness of Local Medicare HMOs Remained the Same . . . . . . . . . . . . . . . . . . . . . . . 5


          Beneficiary Interest in Joining an HMO Decreased . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


APPENDICES

          Responses to 1997 Survey of Beneficiaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


          Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1

                              INTRODUCTION


PURPOSE

To determine Medicare beneficiary awareness of and interest in joining health maintenance
organizations in 1997.

BACKGROUND

The Medicare Program

Medicare is a Federal health insurance program for individuals age 65 and older, and for certain
categories of disabled people. In 1997, Medicare served approximately 38 million beneficiaries,
and paid benefits totaling over $211 billion.1 The Health Care Financing Administration (HCFA)
within the Department of Health and Human Services has responsibility for the Medicare
program.

In all geographic areas, Medicare beneficiaries can obtain medical care through a fee-for-service
arrangement. Many beneficiaries also have an option of obtaining medical care through managed
care plans known as health maintenance organizations (HMOs).

Several people in HCFA asked us to determine beneficiary interest in joining HMOs when we
conducted our 1994 beneficiary satisfaction survey. Because Congress and HCFA continue to
seek ways to expand health care options for Medicare beneficiaries, we included the questions
about HMOs in our 1995 and 1997 surveys.

Two Methods of Obtaining Medical Care

Fee-for-Service - Beneficiaries choose their own physicians, hospitals, and other medical care
providers. Providers submit claims to Medicare for services to Medicare beneficiaries. For
physician and most other outpatient services, Medicare pays 80 percent of the amount allowable
for a covered service. Beneficiaries, or their secondary insurance, pay the remaining 20 percent of
allowable charges, plus Medicare premiums and deductibles.

Managed Care: Beneficiaries enroll in Medicare-contracted organizations which manage their
medical care. The managed care plan may determine the type of care a beneficiary receives, and
may limit access to specialists and other providers. There are several types of managed care
plans. Risk HMOs are the most prevalent.




   1
    Health Care Financing Administration, United States Department of Health and Human Services, HCFA
Statistics, October 1997.

                                               )))))))))))
                                                    1
Each risk HMO has a defined geographic area, and serves beneficiaries who live in that area.
HMOs are responsible for providing a full range of Medicare services, and may offer other
benefits not covered by Medicare, such as prescription drugs.

Medicare pays HMOs a set amount each month to provide beneficiaries all hospital and medical
services available under fee-for-service. Beneficiaries continue to pay Medicare Part B premiums.
They may also have to pay managed care providers a monthly premium and a copayment for
services received. However, they do not pay Medicare deductibles or 20 percent of physician and
outpatient charges that are required under the fee-for-service program.

Typically, after joining an HMO, a beneficiary selects a primary care physician who is affiliated
with the HMO. All medical care is managed by that physician or a case manager. The primary
care physician either provides needed services or refers a beneficiary to appropriate specialists or
other health care providers associated with the HMO. In most instances, beneficiaries are
required to obtain all their medical care through providers affiliated with the HMO they joined.
However, emergency services may be obtained anywhere, and urgently needed care may be
obtained elsewhere when a beneficiary is temporarily out of the HMO service area. Further, some
HMOs have a “point of service” option which allows beneficiaries to obtain some care outside an
HMO’s contracted provider network by paying higher copayments for those services.

As of April 1998, approximately 5.6 million beneficiaries were members in one of 336 Medicare-
contracted risk HMOs.2

METHODS

As part of a broad 1997 national survey to determine beneficiary satisfaction with Medicare,3 we
asked beneficiaries about their awareness of and interest in joining HMOs. HCFA staff assisted in
developing the questions we used.

In July 1997, we mailed a questionnaire to 1269 randomly-selected Medicare beneficiaries for
whom Part B claims had been filed in Calendar Year 1996. Beneficiaries were located both in
areas that had Medicare HMOs and in areas that did not have Medicare HMOs. We excluded
from our sample beneficiaries who were already enrolled in an HMO. We used standard
equations for estimating sample size with a binary response variable.

Beneficiary participation in the survey was voluntary. A total of 977 beneficiaries returned
completed questionnaires, for a response rate of 77 percent. Percentages in the report are based
on the number of beneficiaries answering each question. Based on the response rate, estimates
are within 3.2 percent of the true value at the 95 percent confidence level. Some individual



   2
       Health Care Financing Administration, Medicare Managed Care Contract Report, April 1998.

   3
    Office of Inspector General, United States Department of Health and Human Services. Medicare Beneficiary
Satisfaction: 1997. OEI-04-97-00030.

                                                  )))))))))))
                                                       2
findings may be less precise, depending on the number of beneficiaries who responded to specific
questions. Appendix A shows beneficiary responses. Appendix B shows the confidence intervals.

Comparison to Previous Surveys

In 1994 and 1995, we conducted similar national surveys of Medicare beneficiaries to assess their
awareness of and interest in joining an HMO.4 Since most of the questions used in the 1997
survey were also used in our 1994 and 1995 surveys, we compared beneficiary responses in the
three surveys.

We determined significant differences in beneficiary responses through use of a t-test. If there
was a statistical difference between responses to the surveys, we stated the percent increased or
decreased in the report. If there was not a statistical difference, we stated that the percent stayed
about the same.

A consideration in surveys of this type is that the results may be biased if non-respondents are
significantly different from respondents. To determine whether or not significant bias exist in this
survey, we performed various analyses, including a comparison of age and gender for the 977
respondents and the 272 non-respondents. Our analyses revealed no significant difference, which
suggests that our survey results were not biased based on age and gender. We were unable to
determine if any non-response bias existed as a result of other factors, such as health, disability,
and income.


                                       -----   ----   ---- ---- ----

We conducted this inspection in accordance with the Quality Standards for Inspections issued by
the President's Council on Integrity and Efficiency.




   4
    Office of Inspector General, United States Department of Health and Human Services. Medicare Beneficiary
Interest in HMOs (OEI-04-93-00142). Medicare Beneficiary Interest in Joining HMOs in 1995 (OEI-04-93-
00151).

                                                )))))))))))
                                                     3
                                    FINDINGS

GENERAL AWARENESS OF HMOs BY BENEFICIARIES INCREASED EACH YEAR

Seventy-nine percent of 933 beneficiaries who responded to our question about awareness said
they had heard of HMOs. Table 1 shows that the percent of beneficiaries aware of HMOs has
increased over the last two years. This is logical as the number of HMOs available to beneficiaries
increased from 200 in 1994 to over 335 in 1998. The increase in awareness each year was
statistically significant.

                                     TABLE 1

                          BENEFICIARY AWARENESS OF HMOs


                                  1994                     1995                     1997
  Beneficiaries Aware
                                  62%                      70%                      79%
      of HMOs

Fewer Beneficiaries Wanted More Information About HMOs

Forty percent of 883 beneficiaries who answered our question said they would like to learn more
about Medicare-contracted HMOs. Table 2 shows that the percent of beneficiaries who want
more information has declined each of the last two years. The decrease each year was statistically
significant. This decrease may be because more beneficiaries are aware of HMOs, and do not
think they need more information.

                                   TABLE 2

                  BENEFICIARY DESIRE FOR MORE INFORMATION


                                  1994                     1995                     1997
          Yes                     64%                      54%                      40%
          No                      36%                      46%                      60%


Although Beneficiary Awareness of HMO Appeal Rights Increased, Over Three-fourths Still
Were Unaware

In the 1995 and 1997 surveys, we asked beneficiaries if they were aware that Medicare HMO
members could appeal decisions HMOs made about their medical care. Table 3 shows that the
percent of beneficiaries aware of these rights increased. However, over three-fourths are still
unaware.



                                           )))))))))))
                                                4
                               TABLE 3

             BENEFICIARY AWARENESS OF APPEAL RIGHTS IN HMOs


                                                  1995                       1997
              Yes                                 18%                        24%
              No                                  82%                        76%

Respondents to our survey were not members of an HMO. An OIG survey of HMO members
conducted in 1995 showed that HMO members were knowledgeable about their general right to
complain about HMO services--OEI-07-94-00281.

BENEFICIARY AWARENESS OF MEDICARE HMOs IN THEIR LOCAL AREA
REMAINED THE SAME

We asked beneficiaries if they lived in a location where they could join an HMO. Over half said
they did not know, which is the same as in our 1995 survey. This is somewhat puzzling since the
number of HMOs available to beneficiaries has increased, and the number of beneficiaries who
had heard of HMOs increased. Table 4 shows that responses to the 1997 survey are about the
same as in 1995.

                               TABLE 4

        BENEFICIARY RESPONSES ON AVAILABILITY OF HMOs TO JOIN



                                                          1994       1995            1997

 Beneficiaries who said they did live in an area          26%        34%             36%
 with Medicare HMOs

 Beneficiaries who said they did not live in an           10%        10%              8%
 area with Medicare HMOs

 Beneficiaries who said they did not know if              64%        56%             56%
 they lived in an area with Medicare HMOs

We asked the 341 beneficiaries who said they lived in a location with an HMO to tell us how they
heard about the HMO. Seventy-two percent (246 of 341) of them responded. Table 5 shows that
most of those who had heard of HMOs did so through advertisements.




                                            )))))))))))
                                                 5
                                   TABLE 5

                   HOW BENEFICIARIES BECAME AWARE OF HMOs



                        METHOD                          BENEFICIARIES RESPONDING
                                                              TO QUESTION
                                                             Number                Percent*
        Advertising                                            169                     69
        (Media Ads, Direct Mail, Salesmen,)
        Family and Friends                                      61                     25
        Health Care Provider                                    20                     8
        (Physician, Home Health Agency,
        Hospital)
        Former or Current Employment                            16                     7
        Insurance Companies                                      6                     2
        Presentations                                            3                     1
        (Meeting, Seminar, Conference)
        Previous Experience in an HMO                            1                     .4
        Other                                                    2                     1
        (Senior Citizen Center, Newscasts)
        *
         Some beneficiaries mentioned two ways of learning about HMOs. Therefore, the percentages
        total more than 100%.

These methods of awareness are similar to those identified by beneficiaries during our 1994 and
1995 surveys.

BENEFICIARY INTEREST IN JOINING AN HMO DECREASED

In 1997, 23 percent of 843 beneficiaries who answered our question expressed an interest in
joining an HMO. In 1995, 35 percent said they would be interested. The decrease in percent of
Medicare beneficiaries who said they would be interested in joining an HMO is statistically
significant. Comparisons to 1994 should be made with the knowledge that we changed our
question in 1995. As shown in Table 6, we offered a "Don't Know" response in the 1994 survey
which we did not include in the 1995 and 1997 surveys.




                                               )))))))))))
                                                    6
                                    TABLE 6

                     BENEFICIARY INTEREST IN JOINING AN HMO


                                     1994                        1995                       1997
          Yes                        27%                         35%                         23%
          No                         39%                         65%                         77%
     Don’t Know                      34%                     Not Asked                   Not Asked

Beneficiaries responding to this survey were enrolled in Medicare’s fee-for-service program. It is
possible that most beneficiaries who wish to join an HMO have done so, and most beneficiaries
who have not joined an HMO wish to remain in fee-for-service.

Beneficiaries Want to Select Their Physicians

Of the 77 percent who said they would not be interested in joining an HMO, half (344) cited one
or more objection. Table 7 shows that most beneficiaries were concerned about their inability to
select their doctors if they joined an HMO.

                                  TABLE 7

                 WHY BENEFICIARIES OBJECT TO JOINING AN HMO



                     OBJECTION                             BENEFICIARIES RESPONDING
                                                                 TO QUESTION
                                                               Number                  Percent*
     Inability to Select Physician(s)                             158                      46
     Satisfied with Present Situation/Insurance                    75                      22
     Perceived Poor Reputation of HMOs                             45                      13
     Perceived Restrictions in an HMO                              37                      11
     Perceived Poor Quality of Care                                23                      7
     Lack of Enough Information on HMOs                             8                      2
     Desire to Keep Present Physician                               5                      1
     Other (Too Far to Drive, Too Expensive,                        5                       1
     and Perceived Loss of Benefits)
     *
     Some beneficiaries mentioned two objections to joining HMOs. Therefore, the percentages total
     more than 100%.




                                               )))))))))))
                                                    7
                               CONCLUSION

The Balanced Budget Act of 1997 expanded the types of managed care plans that will be available
to beneficiaries. Accordingly, HCFA is currently negotiating contracts with managed care
providers, and developing educational materials for beneficiaries. Our past studies and this study
have shown, however, that over half of beneficiaries do not know whether or not a managed care
plan is available that they can join. In preparing educational materials, HCFA could provide
beneficiaries with information on managed care plans available in their local areas. Furthermore,
in view of our survey results, it would also be useful for educational materials to emphasize
beneficiaries’ rights to appeal managed care decisions about their medical care.

We plan to continue our work on managed care issues. Accordingly, we will continue to monitor
beneficiary knowledge and understanding of their choices. To this end, we hope to continue
working with HCFA to develop information that will help them better meet beneficiary managed
care needs.




                                           )))))))))))
                                                8
                                      APPENDIX A

                     RESPONSES TO 1997 SURVEY OF BENEFICIARIES

In some cities, Medicare beneficiaries, like yourself, can join managed care plans such as health
maintenance organizations (HMOs). In an HMO, the primary care doctor authorizes, arranges
for, and coordinates all medical services for you. You are usually required to receive all your
medical care from the HMO's doctors, hospitals, and other providers that belong to the HMO.


      QUESTION                RESPONSES
___________________________________________________________________________

1.      Before today, had you ever heard of HMOs?

        Yes                                         733
        No                                          200
        Not Answering: 44


------------------------------------------------------------------------------------------------------------------


2.      a. Are there HMOs in your city or town that Medicare beneficiaries can join?

                 Yes                                341
                 No                                  71
                 Don't Know                         524
                  Not Answering: 41

        b. If yes, how did you hear about those HMOs? (Open-ended question)

                 (N = 246, Number Answering Question)

                 HMO Advertising                    169
                 Family and Friends                  61
                 Health Care Providers               20
                 Former or Current
                   Employers                         16
                 Insurance Company                    6
                 Presentations                        3
                 Previously in HMO                    1
                 Other                                2
                  Not Answering: 95


                                                  )))))))))))
                                                     A-1
            QUESTION          RESPONSES
___________________________________________________________________________

3.	     a.       If there were HMOs in your city or town that Medicare beneficiaries could join,
                 would you be interested in joining?

                 Yes                                193
                 No                                 650
                 Not Answering: 134

        b. 	If no, what would be your objections? (Open-ended question)

                 (N = 344, Number Answering Question)

                 Inability to Select
                  Physician                         158
                 Satisfied with Present
                  Situation/Insurance                 75
                 Perceived Poor Reputation            45
                 Perceived Restrictions               37
                 Perceived Poor Quality
                  of Care                             23
                 Lack of Information
                  on HMOs                               8
                 Desire to Keep Present
                  Physician                             5
                 Other                                  5
                   Not Answering: 306

------------------------------------------------------------------------------------------------------------------

4.	     Before today, were you aware that Medicare HMO members can appeal decisions HMOs
        make about their medical care?

                 Yes                                201
                 No                                 627
                 Not Answering: 149

------------------------------------------------------------------------------------------------------------------

5.      Would you like to learn more about Medicare HMOs?

                 Yes                                351
                 No                                 532
                 Not Answering: 94


                                                  )))))))))))
                                                     A-2
                                 APPENDIX B


                                      Confidence Intervals

                                              Estimate       Boundaries for the 95%
               Description
                                                              Confidence Intervals
Beneficiaries who had heard of HMOs              79%                +/- 2.6%


Beneficiaries who wanted to learn more
about HMOs                                       40%                +/- 3.2%


Beneficiaries not aware of HMO
appeal rights                                    76%                +/- 2.9%


Beneficiaries who did not know if
Medicare HMOs were available in
their area                                       56%                +/- 3.2%


Beneficiaries interested in joining
an HMO                                           23%                +/- 2.8%


Beneficiaries not interested in HMOs due
to inability to select physician                 46%                +/- 5.3%




                                           )))))))))))
                                              B - 1

